CERTIFICATE OF SERVICE
NO. 20-6700
Melissa Calabrese
Petitioner,
v.
State of California, Et al.
Respondents.
__________
STATE OF MASSACHUSETTS )
COUNTY OF NORFOLK
) SS.:
Being duly sworn, I depose and say under penalty of perjury:
1. That I am over the age of 18 years and am not a party to this action. I am an employee of
the Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
Avenue, Suite 283, Boston, MA 02215.
2. On the undersigned date, I served the parties in the above captioned matter with the
PROVIDENCE ST. JOSEPH AND MISSION HOSPITAL BRIEF IN OPPOSITION, by mailing one (1) true and
correct copy of the same by Fedex prepaid for delivery to the following address:
Melissa Calabrese
2449 South El Camino Real
San Clemente, CA 92672-3351
(949) 369-6679
Petitioner Pro Se

Lucas DeDeus

January 20, 2021
SCP Tracking: Holmes II-1301 Dove Street, Suite 700-Cover Orange

